OIG Investigative Reports,Baltimore. MD  May 15, 2014 -  School Proctor Sentenced To Prison In Student Financial Aid Fraud Scheme
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigative Reports
THE UNITED STATES ATTORNEY'S OFFICE
DISTRICT OF MARYLAND
NEWS
School Proctor Sentenced To Prison In Student Financial Aid Fraud Scheme
Three Defendants Convicted for Changing Test Scores to Qualify Students for Federal Grants
FOR IMMEDIATE RELEASE
May 15, 2014
Baltimore, Maryland – U.S. District Judge George L. Russell, III sentenced Jacqualyn Sue Caldwell, age 55, of Baltimore, today to a year and a day in prison, followed by three years of supervised release, for conspiring to defraud a student financial aid program.
The sentence was announced by United States Attorney for the District of Maryland Rod J. Rosenstein; Special Agent in Charge Stephen E. Vogt of the Federal Bureau of Investigation; and Steven Anderson, Special Agent in Charge of the U.S. Department of Education, Office of Inspector General Mid-Atlantic Regional Office.
“Students without high school diplomas who applied for financial aid to attend trade schools were required to pass the Ability to Benefit test and demonstrate their aptitude to complete the educational program and work in the field,” said U.S. Attorney Rod J. Rosenstein. “By cheating, the defendants defeated the purpose of the tests and defrauded the government.”
Caldwell was a test administrator for a company that offered cognitive tests to schools and businesses. During her employment, Caldwell worked almost exclusively as a test proctor for student admissions at the All-State Career School, a for-profit trade school located on Broening Highway in Baltimore.
Students who applied for federal financial aid at All-State were required to have a high school diploma, possess a GED, or pass a designated Ability to Benefit (ATB) test. Caldwell was certified to administer the ATB test onsite at All-State’s campus. Her duties did not include scoring the tests; rather, she was to collect the students’ answer sheets, seal them in an envelope and mail them to her company’s headquarters in Illinois, where they were scored and the results sent back to All-State. The ATB test used a Scan Tron answer sheet that required students to use pencils to fill in circles next to the correct answers. Student applicants who initially failed the ATB test could take it again.
According to Caldwell’s plea agreement, soon after starting her job as a test proctor at All-State in 2008, an All-State admissions representative asked Caldwell for an applicant’s answer sheet so that the representative could change some of the applicant’s answers to allow the applicant to pass the test. Caldwell agreed. Caldwell allowed the representative access to the answer sheet by not sealing the envelope containing the applicants’ answer sheets and leaving the envelope on the receptionist’s desk. After the admissions representative corrected the applicant’s wrong answers, the representative put the answer sheet back into the envelope, sealed it and left it to be mailed. Thereafter, this process was repeated by the representative for other applicants. Caldwell also agreed to employ the same process for a second representative.
Subsequently, a second representative suggested, and Caldwell agreed, that Caldwell erase and change just enough incorrect answers to provide a passing grade for student applicants taking the test for a second time. The representative provided Caldwell with a completed Scan Tron answer sheet and told Caldwell which student applicants were taking the test for a second time, so that Caldwell could correct their answer sheets.
Although the first two representatives agreed not to tell anyone that Caldwell was changing test scores for their student applicants, a third admissions representative asked Caldwell to change scores on answer sheets, which Caldwell agreed to do. Thereafter, Caldwell was continuously approached in the hallways by the three admissions representatives about “helping” a student pass the ATB test on the second try, and Caldwell agreed to do it every time.
According to Moore’s plea agreement, Moore learned through another admissions representative that Caldwell could ensure that students who failed the ATB the first time would pass it the second time. Between January and December 2011, Caldwell agreed to Moore’s requests to help prospective students pass the test the second time.
During her tenure at All-State from 2008 to December 2011, Caldwell changed the answer sheets for approximately 170 students. Approximately 102 of them went on to enroll at All-State and became eligible to receive federal financial aid in the form of Pell Grants and student loans. Approximately 72 of those students received financial aid totaling approximately $572,255.
All-State admissions representatives Jesse Raymond Moore, Sr., age 30, of Crofton, Maryland and Barry Sugarman, age 63, of Owings Mills, each pleaded guilty to the conspiracy. Moore and Sugarman were paid a salary by All-State and were eligible for performance-based raises and commissions for each student that graduated. Moore and Sugarman admitted that they asked Caldwell to manipulate the test results to give applicants taking the test a second time a passing score, which she did. Sugarman also told prospective students to understate their income from previous years when they applied for federal aid in order to qualify for the maximum amount of Pell grants and student loans. Moore was sentenced to four years probation and ordered to pay a $2,000 fine. Sugarman was sentenced to two years probation and ordered to pay a $5,000 fine.
United States Attorney Rod J. Rosenstein praised the FBI and Department of Education, Office of Inspector General for their work in the investigation. Mr. Rosenstein thanked Assistant U.S. Attorney Martin Clarke, who is prosecuting the cases.
Top
Printable view
Last Modified: 05/19/2014
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov